Nov, :JO, 2009 2:00PM                                                                    No, 0387    p, 2



                       NATWNAL RAILROAD PASSENGER CO:RPORATWN

                                  OJlJllCE OF lNSl'lWTOR GENERAL

                                 lNVES'l'IGATIVE CLOSlNG ltID:PORT



    TnL:E: MlsAl'lll'ollrialioll of TRA.-97 Funds          CAS:E NUMBER: 07-132 .

    DATE OF lml'ORT: November 27, 2009

    R:EPORTl'REl'ARED BY:

    A.llugolion: .',

   III Septembel' 2007, Amtrak Inspector Oeneral Fred Weiderhold received a congressional reqllest
   from Congl'essmali James Obersta!', Chuiunall of the United. States House of Representotivos
   Committee oli Transportation and rnftastructure, Congressmftn Obetstal' l'cql\ested that the Amtrak
   Office oflnspeotor O<)lIeral ("oro") investigate the circllmstaltce itt which the State OfSOUUI Dakota
   ("SO") replenished its Aeronautics Fllnd with Taxpayer Relief Act of 1997 ("TRA-97) t\mds aftel'
   the expenditure of 1.5 million dollars for the purchase of a State airplane, Congressman Oberstal' ,
   also requested that 010 condllot an audit ofTRA·97 oxpenditures by all six Non-An\h'ak statGS,

   The Amtrak om qffice ofIllvestigations ("01") opened a case fOC\lSing 011 dle uj>proprilitenoss of
   the airplane pmohase by· the State of South Dakota as well as analyzing the expenditures by South
   Dakota and the .5 other states to determine theh'propriety with TRA·97,

   Investigativo Slllllmal'Y:

    OI's iLiquilY addressed two essential questions, The first critical qllest!on addressed was whether
  . South Dnkotn's use oftlte Amtmk funds was cOl1sistentwlth the Taxpayer Relief Act of 1997,

   01 found that So\lth Dakota utilized State flmds fOl' the jJUrohnse ofille alremft, which makes it less
   likely that the state's utilization of the filtlds was impropel', This requires an interpretntion onlte
   iRA-97, as well us confirmatioJt regal'dlng for what purposes South Dakota utilized the TRA,-97
   funds,

   XIl OUl' review, 01 examined the val'lous rolevant statutes, obtained documents of Ihel State
   expendlMes, and Interviewed several persons with information, lncl\lding State offioials. Tbis
   review established that South Dakota did not utilize TRA-97 fil1lds to purchase the airo~aft, bllt\lSed
   State funding instead. The Investigation initially revealed tllut TRA-97 money, whieh WAS
   1L'ansfcrred into Ihe South Dakota State Aeronautios FlllId. was not sepAl'ately accollnted fol', which
   caused Interest accrued 011 ullused TRA-97 money to not bo calculated, In Ootobel' 2005, South
   Dakota cOll'ected this deficiency llltdroallocated interest. Furthel' analysis OfSO\lthoakota'slIse of
Nov. JU. 2UU9 Z: UUrM                                                                 No. ml      r.   3



     the TRA·97 funds depicts that it has, thus (m', used the fonds consistent with TRA·97.

    The Investigation further revealed that testimony by a South Dakota official at a Februftly 1, 2005,
    budget lleal'ing of the Joint Appropriations Committee of the South Dakota Legislature raised
    concems that TRA·97 money was used to purchase an ail'craft fol' the State, whioh is not an
    allowable expendituro \mderTRA·97 and the SUtface Tl'flnSpoltationRevenue Act of1998 ("STRA-
    9S"; PubHoLaw 105-178), The official told our office during lhe intcl'Viewofhim that his testimony
    was inaccurate. The money used to pUt'chase the aircraft was drawll froln tllo State Aeronautics
    Fond. TRA-97 money was then used to replenish the State Aeronautics Fund, SubsequentlY, the
    tl1A-97 money in the State Aeronautics Fund was spent on qualified expenses. The othOl' State
    officials interviewed also claim that the tRA-97 funds were used for qualified expenses.

     A 1'aview of South Dakota's TRA-97 expenditures indicates that the money was used for qualified
     expenses. South Dakota accounted for the $23,230,000 it received, plus acorued interest of
    $7,147,20 I. The re1tiew and interviews reveal that uponl'eceipt of the Tl1A-97 money lite funds
    were putin a separate account, TRA-97 moneywfls subsequentlytransfened to the State Aeronautics
    Fund, the Highway Fund, or the Railroad Admlnistration Fund, as needed. Our office sent
    verification lette,s to twenty-seven businesses of the one-hundred and fifty-eight identified
    businesses and munioipalitles who received TRA-97 money. Th~ returns to date indicate that the
    funds received Were used for allowable qualified expense projects. Our review also revealed that 1n
    1993 the South Dakota Oepaltment ofLegtslative Audit opined that the Aeronautics Commission
    had the authority to purchase aircraft under South Dakota Codified Laws,

    the second critical question investigated was whether othernon-Amt{Qk StatesutiJized tile TRA·97
    funds pl'opedy.

   In addition to South Dakota, the other fivenon·Amtl'ak States at the tlm6 ofTRA-97 and S'J.'RA-98
   onactment were Alaska, Hawaii, MaiM, Oklahoma, and Wyoming. Since that time, Maino and
   Oklahoma have acquired Amtrak sel'Vice.

   This office reviewed Publlo Law 105·34, tRA,97, Section 977, whloh de fails tile requirement that
   Amu-ak pay 1% of its TRA-97 refund to each non-Amtrak State. Amtrak's refund was
   $2,323,000,000, Bach non-Amtrak State rec~i\'cd $23,230,000. TRA·97 set forth the allowable
   "qualified expenses." In general, the qualified expenses were for the acquisition lind maintenance of
   Intel'City passenger rail and bus service.

   TRA·97 requires the States to retum any unused podlon of the money and accrued inlcl'est to the
   United States by the year 2010. In addition, any pol1ion of the money Ilsed by the States and any
   interest thereon, whloh is used fOl' pUlposes othel' than to finance qualified expenses, must be
   returned. Speoifically, TRA·91 did 1I0t provide for how the Smtes should account for tlte money.
   TRA-97 did not Iequi!'o the States to provide Amtrak or Congress with a pedodic accounting of the
   $23,230,000.


                                                    2
    NOV. JV.   LUV~   L:Vlrm                                                                NO. Vjij/       r.     q




          This offioe also reviewed Section 9007 ot'STRA-98, whIch provided addltlonal q\lal!fied expense
          allowances to non-Amtl'ak States. It was pl'Ovidedforin STRA·98 that section 9007 shall take effect
         as if included in the enactment of section 977 of TRA·97. In general. tile STRA·98 qualified
         expenses allow funding of mass transit. highway, highway safety. xUI'IIl ail' $ervice, passenger
         fenyboat servIce, and harbor Improvemont proJeots. Simllal'to TRA.97, STRA·98 also did not
         establish how the States shollld accountfol' the money received. Nor did STRA-98requil'e the States
         to provide Amtrak or Congress with a periodic acoounting of the $23,230,000, '

         FInally, Section 209 oftne Amtrak RefOlill and Accountability Act of 1997 (public Law 105-134)
         contained limitations on Amtrak's use of the TRA-97 funds. Pursuant to Section 209, Amtrak is
         limited in using allY funds xeceived under TRA-97 to: (a) identified purposes undor sections 977(c)
         and 977(e)(I) of the TRA-97; and (b) may not offset other amounts used for anypUl'pose other than
         the financing of such expenses.

         This office also l'equested an accounting ofTRA-97 money fl'om the othor five non-Amtrak States.
         Ahiska, Hawaii, Maine, Oklahoma, and Wyoming provided an accounting, whloh Indicate that the
         TRA-97 money was used for qualified expenses, consistent with the law.

         Inresponse to II follow-up request for olal'lficat/on, the State ofHawaH provided detailed documents
         on its TRA·97 expendituros, This office qucstione~, and fut,thol' investigated, the expenditure of
         $1,120,000 ofTRA·97 funds on Febl'Ualy28,,2001 bithe DepaHment ofLand &Natul'al Resources
         fOl' the acquisltlon ofland to preserve "the scenic view plane ofLumahal !leach [Kauai] fi'om Kuhio
         Highway" (State Route 560). An examination of the response given by Ihe Hawaii Department of
         Transportation and applicable: federal law, Illdlcates the purchase Is an allowable qualified expense.
         A review of the remaining TRA-97 experiditUl'es by Hawaii indicates they were for allowable
         qualified expenses.

        R.eport to Congress:

        011 February 18, 2009, then Inspector General Weidcl'hold delivered to Congressman Obel'star, a
        copy of II Repolt 10 Congtess, whlch included the Investigative summalY, the Investigative details,
        conclusIon, and relevant I)xhibits.


        RecommendaHon:

        Pending furthel' information or Congressional requests, this case should be Close~,
                                                                                       ~. •.. " ':_~:.-':
                                                                                            "'~-"'i.\t
                 ,
                                                                                            . ~~:.
                                                                                             ~~.
                                                                                                  '.:~
                                                                                                . ,,'            f>tJI..'J)..":
                                                                                            . ...•      ....~.7'~ ~        •




        Deputy Inspecto)' General/Counsel:   --",a"'-&.~1''-I;4",;cr+-_D=e;ato: --'!'-'-I-?/.-~r-~"----'----~
(
                                                          3
